No.19-309

in mbe

~upreme C!Court of tbe W:niteb ~tates
GOVERNOR OF DELAWARE,

V.
JAMES R. ADAMS,

Petitioner,

Respondent.
On Writ of Certiorari to the United States
Court of Appeals for the Third Circuit

BRIEF FOR THE CHAMBER OF COMMERCE OF THE UNITED STATES
OF AMERICA, AS AMICUS CURIAE IN SUPPORT OF PETITIONER
CERTIFICATE OF SERVICE
I, Gregory G. Garre, counsel for amicus curiae the Chamber of Commerce of
the United States of America, and a member of the Bar of this Court, hereby certify
that on the 28th day of January, 2020, I caused to be served three (3) copies of the
Brief for the Chamber of Commerce of the United States of America, as Amicus

Curiae in Support of Petitioner in the above-referenced case by first-class mail,
postage prepaid, upon the counsel for Petitioner and Respondent as listed below:

Michael W. McConnell
Wilson Sonsini Goodrich & Rosati, PC
650 Page Mill Road
Palo Alto, CA 94304
(650) 493-9300
mmcconnell@wsgr.com

Counsel for Petitioner
David Lee Finger
Finger & Slanina, LLC
1201 N. Orange St., 7th fl.
Wilmington, DE 19801
(302) 573-2525
dfinger@delawgroup.com

Counsel for Respondent
Additionally, in accordance with Supreme Court Rules 29.3, an electronic
version of the Brief for the Chamber of Commerce of the United States of America,
as Amicus Curiae in Support of Petitioner was transmitted to the above-listed
counsel at the referenced email addresses.

2

I further certify that all parties required to be served have been served.

LAT

R G. GARRE
& WATKINS

LP

555 Eleventh Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2207
gregory .garre@lw. com
Counsel for Amicus Curiae

3

